SUPREME COURT CASE NO. 20-
IN THE SUPREME COURT OF THE UNITED STATES

ARCHIE LEE WILLIAMS,
Petitioner,
vs.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without payment of costs and to proceed in forma pauperis.

Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and a copy of the order of appointment
is appended. a

Executed on July 2nd, 2020.

  

 

A / Brian D. Clark
4 Couhsel for Petitioner
Brian D. Clark, P.C.

106 Lincoln St. SE

Huntsville, AL 35801

Tel: 256-705-0200

Fax: 256-519-2200

Email: brian@briandclarkpe.com

Appointed Counsel of Record for Petitioner
Brian D. Clark
7/2/2020 Brian D. Clark, PC Mail - CJA eVoucher - c11_prod Notifying Counsel of Appointment

e
G M « 1 | Brian Clark <brian@briandelarkpe.com>

CJA eVoucher - c11_ prod Noti

2 messages

ng Counsel of Appointment

 

cja_evoucher@ca11.uscourts.gov <cja_evoucher@ca11.uscourts.gov> Thu, Jul 25, 2019 at 9:03 AM
To: briandclark99@yahoo.com, brian@briandclarkpc.com

To: Brian Clark,

Date: 7/25/2019 7:03:04 AM.

This is to inform you that the Eleventh Circuit Court of Appeals has appointed you to represent Archie Williams in case USA
v. WILLIAMS 1:19-AP-12784 before this court.
You may access this appointment via the CJA eVoucher program at https://evadweb.ev.uscourts.gov/CJA_c11_prod/CJAeVoucher.

Regards,
Eleventh Circuit Court of Appeals

The information in this e-mail and in any attachment may contain information which is privileged. It is intended only for the attention and use of the named
recipient. If you are not the intended recipient, you are not authorized to retain, disclose, copy or distribute the message and/or any of its attachments. If
you received this e-mail in error, please notify the sender and delete this message, Thank you.

The US Courts.

Brian Clark <brian@briandclarkpc.com> Thu, Jul 25, 2019 at 10:42 AM
To: Kaela Sorrells <kaela@briandclarkpc.com>

Please open for me
[Quoted text hidden]

https://mail.google.com/mail/u/07ik=dc9f9faca5&view=pt&search=all&permthid=thread-f%3A 164003932849 164937 2&simpl=msg-f%3A 164003932849... 1/1
